No. 20-1200

 

IN THE

Supreme Court of the United States

COMMON GROUND HEALTHCARE COOPERATIVE,
ON BEHALF OF ITSELF AND ALL OTHERS
SIMILARLY SITUATED,

Petitioners,

Vv.

UNITED STATES,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

BRIEF FOR ANTHEM, INC., BLUE CROSS OF
IDAHO HEALTH SERVICE, INC., HIGHMARK
INC., L.A. CARE HEALTH PLAN, AND MOLINA
HEALTHCARE OF CALIFORNIA, INC. AS
AMICI CURIAE SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,958 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 1, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
